APPENDIX A

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

Because the valid firearms provision is
severable from the invalid cell phone provision, none of the evidence obtained during
the search should be suppressed.
III.

Conclusion

801

(3) Congress approved of national interest
that sentencing enhancements promoted of deterring noncitizens from illegally reentering United States after qualifying criminal conviction;

For the foregoing reasons, we AFFIRM
the district court’s denial of Cotto’s motion
to suppress.

(4) Sentencing Commission’s stated rationales for promulgating sentencing enhancements for noncitizens qualified as
valid considerations for agency;

,

(5) on issue of first impression, district
court did not have to consider national
origin in imposing sentencing enhancements;

UNITED STATES of America,
Plaintiff - Appellant,
v.
Juan Carlos OSORTO, a.k.a.
Jose Angel Soriano-Osorto,
Defendant – Appellee.
No. 19-11408
United States Court of Appeals,
Eleventh Circuit.
(April 20, 2021)
Background: Defendant was convicted in
the United States District Court for the
Middle District of Florida, No. 8:18-cr00519-RAL-AEP-1, Richard Lazzara, Senior District Judge, of illegal reentry. Defendant appealed.
Holdings: The Court of Appeals, Rosenbaum, Circuit Judge, held that:
(1) Congress could pass legislation mandating longer sentences for noncitizens
convicted of illegal reentry after they
incurred other criminal convictions;
(2) provision criminalizing unlawful reentry
after deportation did not expressly
mandate Sentencing Commission to issue any sentencing guidelines;

(6) defendant’s sentence of 37 months’ imprisonment for illegal reentry after deportation was not substantively unreasonable; and
(7) Sentencing Commission intended for
noncitizen who illegally reentered
United States after previous deportation or removal to have his post-deportation convictions accounted for both
in his offense conduct and in his criminal history.
Affirmed.
Martin, Circuit Judge, filed opinion concurring in part and dissenting in part.

1. Constitutional Law O3020
The Fourteenth Amendment promises
equal protection of state law. U.S. Const.
Amend. 14, § 1.
2. Constitutional Law O3024
The Fifth Amendment provides equal
protection of federal law. U.S. Const.
Amend. 5.
3. Constitutional Law O3861
Fifth Amendment’s guarantee of due
process embodies within it concept of
equal justice under the law. U.S. Const.
Amend. 5.

802

995 FEDERAL REPORTER, 3d SERIES

4. Constitutional Law O3005, 3861
Although the same type of equal-protection analysis is employed under both
the Fifth and the Fourteenth Amendments, the extent of the protections under
each Amendment is not always the same.
U.S. Const. Amends. 5, 14, § 1.
5. Aliens, Immigration, and Citizenship
O101
States O18.43
The federal government enjoys the
exclusive authority to control immigration
and to regulate the relationship between
the United States and noncitizen visitors.
6. Aliens, Immigration, and Citizenship
O397, 726
A narrow standard of review applies
to decisions made by the Congress or the
President in the area of immigration and
naturalization.
7. Constitutional Law O3072
While state laws that discriminate
against noncitizens are subject to strict
equal protection scrutiny under the Fourteenth Amendment, federal laws that discriminate against noncitizens must pass
only rational-basis equal protection scrutiny under the Fifth Amendment. U.S.
Const. Amends. 5, 14, § 1.
8. Constitutional Law O4026
Where federal agency promulgates
rule in question, rule must survive procedural due process inquiry when it effects
deprivation of life, liberty, or property.
U.S. Const. Amend. 5.
9. Constitutional Law O4026
Unlike President and Congress, procedural due process prevents a federal
agency from promulgating a rule regulating the life, liberty, or property of noncitizens without what can be deemed as legitimate authorization to serve specific

overriding national interest.
Amend. 5.

U.S. Const.

10. Constitutional Law O4435
Procedural due process requires a legitimate basis for presuming an agency’s
rule regulating the life, liberty, or property
of noncitizens actually was intended to
serve overriding national interest. U.S.
Const. Amend. 5.
11. Aliens, Immigration, and Citizenship
O155
Constitutional Law O4435
The procedural due-process inquiry
relating to a rule regulating the life, liberty, or property of noncitizens may be satisfied by Congress or the President expressly mandating the rule, in which case a
court generally would conclude that the
agency adopted the rule because of any
interest which might rationally be served;
when neither Congress nor the President
explicitly directs the rule, the agency’s rationale for it must identify interests on
which that agency properly may rely in
making a decision implicating the constitutional and social values at stake. U.S.
Const. Amend. 5.
12. Constitutional Law O3072, 4435
If agency-promulgated rule regulating
the life, liberty, or property of noncitizens
cannot survive procedural due-process inquiry, Court of Appeals need not conduct
substantive equal protection review because rule must be held unconstitutional,
regardless; but if rule passes procedural
due process muster, Court of Appeals then
engages in rational-basis review to determine whether rule satisfies equal protection. U.S. Const. Amend. 5.
13. Constitutional Law O3053
Rational-basis equal-protection review
of government action considers whether
the classification at issue is rationally re-

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

803

lated to a legitimate governmental purpose. U.S. Const. Amend. 5.

17. Aliens, Immigration, and Citizenship
O101, 769

14. Constitutional Law O4702

Congress has plenary authority to
control immigration, including by defining
criminal immigration offenses.

Longer prison sentence constitutes
deprivation of liberty, and thus, under
Fifth Amendment, it must be accompanied
by due process; as a result, the Constitution mandates some judicial scrutiny of the
deprivation. U.S. Const. Amend. 5.
15. Courts O90(2)
Under the prior-precedent rule, a subsequent Court of Appeals panel is bound
by a prior panel’s ruling to reach the same
conclusion.
16. Aliens, Immigration, and Citizenship
O799
Constitutional Law O4709
Sentencing and Punishment O658
Congress could pass legislation mandating longer sentences for noncitizens
convicted of illegal reentry after they incurred other criminal convictions, weighing
in favor of conclusion that sentencing enhancements for noncitizens who previously
had been deported after prior conviction in
United States and sought to reenter and
those who previously had been deported
and committed other crime in United
States after their first deportation did not
transgress procedural due process rights,
since Congress had plenary authority to
control immigration, including by defining
criminal immigration offenses, and Congress reasonably may have concluded that
prospect of such increased sentences
would deter noncitizens who previously
sustained qualifying criminal convictions
from reentering unlawfully. U.S. Const.
Amend. 5; Immigration and Nationality
Act § 276, 8 U.S.C.A. § 1326(b); U.S.S.G.
§ 2L1.2(b)(2).

18. Aliens, Immigration, and Citizenship
O773
Criminalizing unlawful reentry after
deportation represents a valid exercise of
Congressional regulatory authority. Immigration and Nationality Act § 276, 8
U.S.C.A. § 1326.
19. Aliens, Immigration, and Citizenship
O773, 799
Sentencing and Punishment O40
Just as Congress could, by statute,
define the offense of unlawful reentry after
deportation, it could further specify increased penalties for certain offenders.
Immigration and Nationality Act § 276, 8
U.S.C.A. § 1326; U.S.S.G. §§ 2L1.2(b)(2),
2L1.2(b)(3).
20. Aliens, Immigration, and Citizenship
O799
Constitutional Law O4709
Sentencing and Punishment O658
Provision criminalizing unlawful reentry after deportation did not expressly
mandate United States Sentencing Commission to issue any sentencing guidelines,
weighing against conclusion that sentencing enhancements for noncitizens who previously had been deported after prior conviction in United States and sought to
reenter and those who previously had
been deported and committed other crime
in United States after their first deportation did not transgress procedural due
process rights; even if Congress acquiesced in sentencing enhancements for
qualifying convictions when it allowed
them to take effect after Sentencing Commission submitted its amended Guidelines
to Congress, Sentencing Commission could

804

995 FEDERAL REPORTER, 3d SERIES

eliminate enhancements.
U.S. Const.
Amend. 5; Immigration and Nationality
Act § 276, 8 U.S.C.A. § 1326(b); U.S.S.G.
§ 2L1.2(b)(2).
21. Administrative Law and Procedure
O1282
Once agency promulgates rule required by statute, agency is not free to
scrap rule in absence of congressional or
executive direction.
22. Aliens, Immigration, and Citizenship
O155
Constitutional Law O4435
A rule regulating the life, liberty, or
property of noncitizens that is expressly
mandated by the Congress or the President, and therefore is not subject to a
procedural due-process inquiry, is easily
identifiable: an agency issues it in response
to a statute or executive order that, by its
language, ‘‘expressly’’ directs the agency to
promulgate a rule or rules on a given
matter. U.S. Const. Amend. 5.
23. Aliens, Immigration, and Citizenship
O799
Constitutional Law O4709
Sentencing and Punishment O658
Enactment and amendment of provision criminalizing unlawful reentry after
deportation showed that Congress approved of national interest that sentencing
enhancements promoted deterring noncitizens from illegally reentering United
States after qualifying criminal conviction,
weighing in favor of conclusion that sentencing enhancements for noncitizens who
previously had been deported after prior
conviction in United States and sought to
reenter and those who previously had been
deported and committed other crime in
United States after their first deportation
did not transgress procedural due process
rights; longer prison terms for certain noncitizens convicted of illegal reentry reason-

ably could be viewed as deterring those
noncitizens with prior convictions from unlawfully reentering. U.S. Const. Amend.
5; Immigration and Nationality Act § 276,
8
U.S.C.A.
§
1326(b);
U.S.S.G.
§§ 2L1.2(b)(2), 2L1.2(b)(3).
24. Aliens, Immigration, and Citizenship
O799
Constitutional Law O4709
Sentencing and Punishment O658
Sentencing Commission’s stated rationales for promulgating sentencing enhancements for noncitizens who previously
had been deported after prior conviction in
United States and sought to reenter and
those who previously had been deported
and committed other crime in United
States after their first deportation qualified as valid considerations for agency,
weighing in favor of conclusion that enhancements did not transgress procedural
due process rights; promulgation of Sentencing Guidelines that reasonably could
be expected to have effect of deterring
illegal reentries of those noncitizens who
have committed other crimes was entirely
consistent with Sentencing Commission’s
duties and responsibilities, and rationales
of culpability and risk of recidivism logically supported Congress’s adopted national
interest in deterring noncitizens with criminal convictions from repeatedly illegally
reentering. U.S. Const. Amend. 5; Immigration and Nationality Act § 276, 8
U.S.C.A.
§
1326(b);
28
U.S.C.A.
§
995(a)(14),
(15),
(20);
U.S.S.G.
§§ 2L1.2(b)(2), 2L1.2(b)(3).
25. Aliens, Immigration, and Citizenship
O799
Constitutional Law O4709
Sentencing and Punishment O658
Sentencing Commission appropriately
relied on its expertise and study it undertook on sentencing for illegal-reentry offenses when it promulgated sentencing en-

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

805

hancements for noncitizens who previously
had been deported after prior conviction in
United States and sought to reenter and
those who previously had been deported
and committed other crime in United
States after their first deportation, weighing in favor of conclusion that enhancements did not transgress procedural due
process rights, since Commission used statistical analysis, along with legal analysis
and public comment, to arrive at enhancements. U.S. Const. Amend. 5; Immigration and Nationality Act § 276, 8 U.S.C.A.
§ 1326(b); 28 U.S.C.A. § 995(a)(14), (15);
U.S.S.G. §§ 2L1.2(b)(2), 2L1.2(b)(3).

critical part of what makes the reentry
wrongful; that is to say, Congress determined that illegally being present in the
country after already having been convicted of otherwise violating the law in the
United States makes the crime of illegally
being in the United States a different and
worse crime than it would be in the absence of the prior conviction, and for that
reason, considering the qualifying prior
convictions in the criminal-history calculation does not capture the nature of the
reentry crime. Immigration and Nationality Act § 276, 8 U.S.C.A. § 1326(b);
U.S.S.G. §§ 2L1.2(b)(2), 2L1.2(b)(3).

26. Aliens, Immigration, and Citizenship
O799
Constitutional Law O4709
Sentencing and Punishment O658
Sentencing Commission’s stated rationales that sentencing reflected culpability
and risk of recidivism, as narrowly addressed to only those noncitizens who previously had been deported and who had
prior convictions, sufficiently justified deprivation of liberty recommended in sentencing enhancements for noncitizens who
previously had been deported after prior
conviction in United States and sought to
reenter and those who previously had been
deported and committed other crime in
United States after their first deportation,
weighing in favor of conclusion that enhancements did not transgress procedural
due process rights. U.S. Const. Amend. 5;
Immigration and Nationality Act § 276, 8
U.S.C.A.
§
1326(b);
U.S.S.G.
§§ 2L1.2(b)(2), 2L1.2(b)(3).

28. Aliens, Immigration, and Citizenship
O799

27. Aliens, Immigration, and Citizenship
O799
Sentencing and Punishment O94
Increased maximum sentences for illegal reentry for defendants with qualifying
prior convictions indicates a Congressional
judgment that the prior conviction is a

Constitutional Law O3133(1)
Sentencing and Punishment O658
Post-deportation conviction sentencing
enhancements for noncitizens bore rational
relationship to interests on which United
States Sentencing Commission relied of
ensuring sentences that reflected culpability and risk of recidivism, and therefore
enhancements did not violate equal protection, since Commission reasonably could
have determined that sentence of noncitizen who illegally entered United States
more than once and committed crimes
when in United States illegally, whether he
did so before or after he had been ordered
deported or removed for first time, should
reflect that he was more blameworthy than
noncitizen who simply illegally entered
United States more than once but otherwise was law-abiding while in United
States, and it likewise rationally could have
concluded that noncitizen who illegally entered United States more than once and
also engaged in other criminal activity
while in United States posed greater risk
of unlawfully returning to United States in
future. U.S. Const. Amend. 5; Immigration and Nationality Act § 276, 8 U.S.C.A.

806
§ 1326(b);
2L1.2(b)(3).

995 FEDERAL REPORTER, 3d SERIES

U.S.S.G.

§§

2L1.2(b)(2),

29. Aliens, Immigration, and Citizenship
O799
Sentencing and Punishment O706
District court did not have to consider
national origin in imposing sentencing enhancements for noncitizens who previously
had been deported after prior conviction in
United States and sought to reenter and
those who previously had been deported
and committed other crime in United
States after their first deportation, and
therefore court did not violate directive
from Congress for sentencing to be neutral
as to national origin, since alienage, which
referred to not being citizen of United
States, differed from national origin, which
referred to particular country in which one
was born. Immigration and Nationality
Act § 276, 8 U.S.C.A. § 1326(b); 28
U.S.C.A. § 994(d); U.S.S.G. § 2L1.2.
30. Aliens, Immigration, and Citizenship
O799
Noncitizen defendant’s sentence of 37
months’ imprisonment for illegal reentry
after deportation was not substantively unreasonable; although sentence included
post-deportation conviction sentencing enhancement, sentence fell at low end of his
Sentencing Guidelines range, court stated
that it considered all statutory sentencing
factors and Sentencing Guidelines, and
court emphasized defendant’s history and
characteristics in imposing his sentence.
Immigration and Nationality Act § 276, 8
U.S.C.A. § 1326(b); U.S.S.G. § 2L1.2.
31. Criminal Law O1156.2
The substantive reasonableness of a
sentence is reviewed for abuse of discretion.
32. Criminal Law O1141(2)
A defendant challenging a sentence
must shoulder the burden of demonstrat-

ing that the sentence is unreasonable, considering the complete record, the statutory
sentencing factors, and the substantial deference given sentencing courts.
18
U.S.C.A. § 3553(a).
33. Criminal Law O1130(5, 6)
Defendant abandoned arguments that
his sentence was substantively unreasonable because Sentencing Commission did
not rely on empirical data and merely
sought to implement Congress’s scheme
for maximum punishment; although defendant raised arguments in his reply brief,
he did not raise them in his opening brief.
34. Sentencing and Punishment O905
Criminal-history Sentencing Guidelines did not impermissibly double-count
prior convictions for noncitizens under
Sentencing Guidelines for illegal reentry,
since Sentencing Commission clearly intended that result and because different
policies, deterrence and recidivism, respectively, motivated each provision. Immigration and Nationality Act § 276, 8
U.S.C.A. § 1326(b); U.S.S.G. § 2L1.2(b)(2).
35. Criminal Law O1139
A double-counting objection to the
Sentencing Guidelines is reviewed de novo.
36. Sentencing and Punishment O902
Impermissible double counting occurs
only when one part of Sentencing Guidelines is applied to increase defendant’s
punishment on account of kind of harm
that already has been fully accounted for
by application of another part of Guidelines; however, double-counting is allowable if the Sentencing Commission intended the result, and each section applied
concerns conceptually separate notions relating to sentencing.
37. Sentencing and Punishment O905
Sentencing Commission intended for
noncitizen who illegally reentered United

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

States after previous deportation or removal to have his post-deportation convictions accounted for both in his offense
conduct and in his criminal history, since
Sentencing Commission acknowledged that
result, Sentencing Commission anticipated
applying separate guideline sections cumulatively unless Sentencing Guidelines expressly indicated contrary and Guidelines
did not suggest that Commission did not
intend alleged double-counting result, and
harm of committing other crimes while
illegally in United States was separate
from harm addressed under criminal-history category. Immigration and Nationality
Act § 276, 8 U.S.C.A. § 1326(b); U.S.S.G.
§ 2L1.2(b)(3).
38. Sentencing and Punishment O651
A sentence within the Sentencing
Guidelines range is generally anticipated
to be reasonable.

Appeal from the United States District
Court for the Middle District of Florida,
D.C. Docket No. 8:18-cr-00519-RAL-AEP1
Peter J. Sholl, U.S. Attorney Service Middle District of Florida, U.S. Attorney’s
Office, TAMPA, FL, for Plaintiff-Appellee.
Lynn Palmer Bailey, Federal Public Defender, Federal Public Defender’s Office,
Jacksonville, FL, Samuel Landes, Federal
Public Defender’s Office, Tampa, FL,
Rosemary Cakmis, Federal Public Defender’s Office, Orlando, FL, for DefendantAppellant.
Before MARTIN, ROSENBAUM, and
TALLMAN,* Circuit Judges.
* The Honorable Richard C. Tallman, Circuit
Judge for the United States Court of Appeals

807

ROSENBAUM, Circuit Judge:
Title 8, United States Code, Section
1326(b) imposes higher maximum penalties
on those who unlawfully reenter the United States if they do so after they were
deported following certain types of convictions. See 8 U.S.C. § 1326(b). We have
suggested two policies that Congress advanced when it enacted (and amended) this
statute: (1) deterrence of those who have
committed qualifying crimes from illegally
reentering the United States, see United
States v. Adeleke, 968 F.2d 1159, 1160–61
(11th Cir. 1992); and (2) the judgment that
unlawful reentry into the United States
after deportation following a qualifying
conviction is a more serious crime than
basic illegal reentry, United States v. Alfaro-Zayas, 196 F.3d 1338, 1341 n.5 (11th
Cir. 1999) (per curiam). Besides these interests, the Supreme Court has also concluded that § 1326(b) addresses recidivism.
See Almendarez-Torres v. United States,
523 U.S. 224, 230, 118 S.Ct. 1219, 140
L.Ed.2d 350 (1998).
In line with § 1326(b), the United States
Sentencing
Commission
issued
§ 2L1.2(b)(2) of the United States Sentencing Guidelines Manual (‘‘U.S.S.G.’’). Before
the Sentencing Commission amended that
guideline in 2016, § 2L1.2(b)(2) imposed an
enhancement of as much as 16 levels to the
offense level for illegal-reentry offenses
when the defendant had previously been
convicted of a single qualifying crime (other than illegal reentry) before he was deported at an earlier time. We have held
that this guideline, which echoed
§ 1326(b)’s enhanced penalties for illegally
reentering the United States after being
deported following a qualifying conviction,
did not violate noncitizens’ equal-protection rights. See Adeleke, 968 F.2d at 1161.
for the Ninth Circuit, sitting by designation.

808

995 FEDERAL REPORTER, 3d SERIES

When we did so, the Guidelines included
no offense enhancement for the very same
illegal-reentry defendant if he committed
the same single other crime after he was
deported for illegal reentry but before his
current illegal-reentry prosecution. So in a
2015 study, the Sentencing Commission
determined that two otherwise similarly
situated illegal-reentry defendants who
had committed the very same other
crime—one before he was deported and
one after—could wind up with very different offense levels: the sentencing range of
the one who was convicted before his deportation could be as much as 23 times
higher than that of the one convicted after
his deportation but before his current
prosecution for illegal reentry.
To more equitably reflect culpability and
risk of recidivism embodied in § 1326(b), in
2016, the Sentencing Commission amended
§ 2L1.2(b) to decrease the maximum enhancement, in illegal reentry cases, for a
pre-deportation conviction to 10 levels
(§ 2L1.2(b)(2)). At the same time, it added
a new enhancement of up to 10 levels for a
post-first-deportation conviction incurred
before the immediate illegal-reentry offense (§ 2L1.2(b)(3)).
Defendant-Appellant Juan Carlos Osorto
was convicted of illegal reentry after the
2016 Guidelines went into effect. Because
he had committed other offenses both before his original deportation and after it,
but before his current illegal-reentry offense, he received offense-level increases
under both subsections 2L1.2(b)(2) and (3).
He now challenges both subsections as
violations of, among other things, his
equal-protection rights. Osorto (and the
Dissent) argue that these guidelines, which
apply to only illegal-reentry offenses, discriminate against noncitizens by counting
their prior convictions twice—once in the
offense level and a second time in the
Guidelines’ criminal-history calculation.

Meanwhile, Osorto contends, citizens cannot illegally reenter the United States, and
generally, no guidelines for other offenses
count prior convictions in both the offenselevel and criminal-history calculations. So
in Osorto’s view, subsections 2L1.2(b)(2)
and (3) unlawfully discriminate against
noncitizens.
We disagree. First, Osorto’s challenge to
§ 2L1.2(b)(2) is foreclosed by our binding
precedent in the form of Adeleke. Second,
Osorto (and the Dissent) consider the
wrong universe of individuals. Subsections
2L1.2(b)(2) and (3) do not apply to all
noncitizens convicted of any crime in the
United States; rather, they apply to only
those noncitizens who both have illegally
reentered the United States and have been
convicted of other crimes. This is important because, third, through § 1326(b),
Congress has determined that illegally
reentering the United States after being
deported following conviction on another
crime is a more serious offense than simply illegally reentering the United States,
and that conduct should be deterred. The
challenged guidelines reflect the national
interests that Congress permissibly has
endorsed through its enactment and
amendment of § 1326(b). Fourth, Congress
has entrusted the Sentencing Commission
with direct responsibility for fostering and
protecting the interests of, among other
things, sentencing policy that promotes deterrence and appropriately punishes culpability and risk of recidivism—the interests
the Sentencing Commission cited in issuing the challenged guidelines. Finally, subsections 2L1.2(b)(2) and (3) are rationally
related to the Commission’s stated interests in issuing them. So after careful consideration, and with the benefit of oral
argument, we must uphold the guidelines
at issue and affirm Osorto’s sentence.
I. Background
Osorto pled guilty to a lone count of
illegal reentry following a prior conviction

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

809

for an aggravated felony, in violation of 8
U.S.C. § 1326(a) and (b)(2).

the upper end of a proposed sentencing
range of 15 to 21 months’ imprisonment.

His presentence investigation report
(‘‘PSR’’) noted that Osorto had been convicted of two prior felonies: one before he
was originally deported from the United
States and one after he reentered, but
before he pled guilty to the charge in this
case. Among other things, and in accordance with U.S.S.G. § 2L1.2(b)(2)(A), the
PSR recommended a ten-level increase to
Osorto’s base offense level of 8 because
Osorto had been convicted of a felony with
a sentence of at least five years before he
was deported. And because of his conviction after he was ordered deported (which
occurred after he illegally reentered the
United States), the PSR recommended an
additional four-level increase, pursuant to
U.S.S.G. § 2L1.2(b)(3)(D). After crediting
Osorto for his acceptance of responsibility,
the PSR determined his total offense level
to be 19. Based on the same two prior
convictions, the PSR also determined that
Osorto had a criminal-history category of
III. As a net effect of these recommendations, the PSR calculated a Guidelines sentencing range of 37 to 46 months’ imprisonment.

At Osorto’s sentencing hearing, the district court adopted the PSR’s factual statements and Guidelines calculations, and
Osorto did not object. As a result, the
district court determined Osorto’s total offense level to be 19 and his criminal-history category to be III, corresponding to a
Guidelines range of 37 to 46 months’ imprisonment. Consistent with his memorandum, Osorto argued for a downward variance, while the government sought a
Guidelines sentence.

Osorto filed a sentencing memorandum
objecting. He asserted that the Guidelines
placed unreasonable weight on his prior
convictions. To address this problem, Osorto argued, the district court should vary
downward by 7 levels to account for what
Osorto described as the double-counting of
his prior convictions under both the offense-level and criminal-history calculations of the Guidelines. Osorto also preserved an equal-protection challenge to the
Guidelines, on the ground that they treat
noncitizens differently (and more harshly)
than other offenders. Nevertheless, Osorto
conceded that Adeleke, 968 F.2d 1159,
foreclosed his equal-protection challenge.
Ultimately, Osorto requested a sentence at

The court imposed a low-end Guidelines
sentence of 37 months’ imprisonment and
three years’ supervised release. In response, Osorto renewed his objections that
the sentence was substantively unreasonable and violated Osorto’s right to equal
protection. The court overruled Osorto’s
objections, and Osorto filed a timely notice
of appeal.
II. The Equal-Protection Challenges
A.

Subsections 2L1.2(b)(2) and (3)

Osorto asserts equal-protection challenges to U.S.S.G. § 2L1.2(b)’s enhancements, for prior convictions, to the base
offense level for illegal reentry. As relevant here, § 2L1.2(b) imposes separate
enhancements for convictions a defendant
incurred both before he was ordered deported or removed for the first time
(U.S.S.G. § 2L1.2(b)(2)) and after he was
ordered deported or removed for the first
time (U.S.S.G. § 2L1.2(b)(3)). Depending
on the nature of the prior conviction and
the length of the sentence for that conviction, subsections 2L1.2(b)(2) and (3) instruct the court to enhance the base offense level by between 2 and 10 levels.
Osorto’s particular pre-deportation felony
conviction required a 10-level enhancement
under this framework, see U.S.S.G.
§ 2L1.2(b)(2)(A), while his post-deportation

810

995 FEDERAL REPORTER, 3d SERIES

felony conviction called for an additional 4level
enhancement,
see
U.S.S.G.
§ 2L1.2(b)(3)(D).
Though § 2L1.2(b) instructs that these
enhancements for prior convictions be added to increase the offense level, the Guidelines consider the same prior convictions
again and separately for purposes of the
criminal-history-category
determination.
Osorto argues that subsections 2L1.2(b)(2)
and (3) violate his right to equal protection
because non-U.S. citizens convicted of illegal reentry after order of deportation or
removal have their prior convictions counted against them twice (once in calculating
the offense level and once in determining
the criminal-history category), but U.S. citizens, who cannot be convicted of committing illegal reentry after deportation, generally have their prior convictions held
against them only once 1—in the criminalhistory determination.
B.

The framework for evaluating
equal-protection challenges to
federal rules that are not enacted
by Congress or the President requires us to conduct both a dueprocess inquiry and an equal-protection analysis.

We review de novo Osorto’s constitutional challenges to subsections 2L1.2(b)(2)
and (3) of the Sentencing Guidelines. See
United States v. Pressley, 345 F.3d 1205,
1209 (11th Cir. 2003).
1.

Osorto acknowledges that ‘‘[a] few other
guidelines in Chapter Two [of the Sentencing Guidelines Manual] enhance the offense
level for prior convictions.’’ Osorto’s Initial
Br. at 10 n.4 (citing U.S.S.G. § 2K2.1 (the
guideline applicable to felons in possession
of firearms)). But he distinguishes these
guidelines from subsections 2L1.2(b)(2) and
(3) for two reasons. First, he notes that the
only thing that makes a convicted felon’s
possession of a firearm illegal is his prior
criminal history, id., whereas illegal reentry
after deportation is unlawful whether the

[1–3] By its terms, the Fourteenth
Amendment promises equal protection of
state law. U.S. Const. amend. XIV, § 1.
But when it comes to equal protection of
federal law, the Fifth Amendment does
that job. Hampton v. Wong, 426 U.S. 88,
100, 96 S.Ct. 1895, 48 L.Ed.2d 495 (1976).
Unlike the Fourteenth Amendment, the
Fifth Amendment contains no express
equal-protection clause. But the Fifth
Amendment’s guarantee of due process
embodies within it the concept of equal
justice under the law. Id.
[4] We employ the same type of equalprotection analysis under both the Fifth
and the Fourteenth Amendments. Id. Yet
the extent of the protections under each
Amendment is not always the same. Id.
[5–7] One area where the scope of protections can differ between the Fifth and
Fourteenth Amendments is law that distinguishes between citizens and noncitizens.
See id. at 100–01, 96 S.Ct. 1895. That is so
because the federal government enjoys the
exclusive authority to control immigration
and to regulate the relationship between
the United States and noncitizen visitors.
See id. at 101 n.21, 96 S.Ct. 1895; Mathews
v. Diaz, 426 U.S. 67, 81, 96 S.Ct. 1883, 48
L.Ed.2d 478 (1976). And because questions
relating to these areas ‘‘are frequently of a
character more appropriate to either the
Legislature or the Executive than to the
noncitizen has previously been convicted of
another criminal offense or not. Second, he
argues that the enhancements under
§ 2L1.2(b) for prior convictions are steeper
(and therefore harsher) than the enhancements for prior convictions under other
guidelines. Id. For purposes of our analysis,
we assume without deciding that subsections
2L1.2(b)(2) and (3) discriminate against
some noncitizens in ways that other guidelines do not discriminate against citizens
(and other noncitizens).

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

Judiciary[,] TTT [t]he reasons that preclude
judicial review of political questions[ ] also
dictate a narrow standard of review of
decisions made by the Congress or the
President in the area of immigration and
naturalization.’’ Mathews, 426 U.S. at 81–
82, 96 S.Ct. 1883. So while state laws that
discriminate against noncitizens are subject to strict scrutiny under the Fourteenth Amendment, see Graham v. Richardson, 403 U.S. 365, 376, 91 S.Ct. 1848, 29
L.Ed.2d 534 (1971), federal laws that discriminate against noncitizens must pass
only rational-basis scrutiny under the Fifth
Amendment, see Mathews, 426 U.S. at 83–
85, 96 S.Ct. 1883.
[8–10] This dichotomy assumes, however, that the President or Congress enacts the federal provision challenged.
Hampton, 426 U.S. at 103, 105, 96 S.Ct.
1895. Where, as is the case here, a federal
agency promulgates the rule in question,
the rule must also survive a proceduraldue-process inquiry when it effects a deprivation of life, liberty, or property. See
id. at 102–03, 96 S.Ct. 1895. Unlike the
President and Congress, a federal agency
may not promulgate a rule regulating noncitizens without what can be deemed as
legitimate authorization to serve a specific
‘‘overriding national interest.’’ See id. at
103, 96 S.Ct. 1895. And ‘‘due process requires that there be a legitimate basis for
presuming that the [agency’s] rule was
actually intended to serve that [overriding
national] interest.’’ Id.
[11] The government can satisfy this
due-process inquiry in one of two ways.
See id. First, Congress or the President
can ‘‘expressly mandate[ ]’’ the rule, in
which case we would generally conclude
that the agency adopted the rule because
of ‘‘any interest which might rationally be
served’’ by it. Id. Second, when neither
Congress nor the President explicitly directs the rule, the agency’s rationale for it

811

must identify ‘‘interests on which that
agency may properly rely in making a
decision implicating the constitutional and
social values at stake.’’ Id. at 113–14, 96
S.Ct. 1895.
[12, 13] If the agency-promulgated rule
cannot survive this inquiry, we need not
conduct a substantive equal-protection review because the rule must be held unconstitutional, regardless. Id. at 103, 96 S.Ct.
1895. But if the rule passes proceduraldue-process muster, we then engage in
rational-basis review to determine whether
the rule satisfies equal protection. See id.;
Mathews, 426 U.S. at 83–85, 96 S.Ct. 1883.
Rational-basis review considers whether
the classification at issue is ‘‘rationally related to a legitimate governmental purpose.’’ City of Cleburne v. Cleburne Living
Ctr., 473 U.S. 432, 446, 105 S.Ct. 3249, 87
L.Ed.2d 313 (1985).
[14] As we have explained, Osorto argues that the Sentencing Guidelines, which
are issued by the U.S. Sentencing Commission, a federal agency, unlawfully recommend longer prison sentences for noncitizens convicted of illegal reentry after
other criminal convictions. A longer prison
sentence obviously constitutes a deprivation of liberty. So under the Fifth Amendment, it ‘‘must be accompanied by due
process.’’ Hampton, 426 U.S. at 103, 96
S.Ct. 1895. As a result, the Constitution
mandates ‘‘some judicial scrutiny of the
deprivation.’’ Id.
C. Subsections 2L1.2(b)(2) and (3) do
not violate procedural due process.
Osorto’s case is not the first one where
we’ve considered whether enhancements
for pre-deportation convictions (for which
§ 2L1.2(b)(2) provides) transgress equalprotection rights. We addressed this same
issue almost thirty years ago in Adeleke,

812

995 FEDERAL REPORTER, 3d SERIES

968 F.2d 1159. When we did, though, we
did not apply the Hampton analysis.
[15] Nevertheless, we concluded that
enhancements for pre-deportation convictions do not violate equal protection. Id. at
1160–61. And even though the guideline we
analyzed in Adeleke was an older version
of today’s § 2L1.2(b)(2), the two iterations
are similar enough that, as Osorto concedes, under our prior-precedent rule, we
remain bound by that ruling to reach the
same conclusion in Osorto’s case. See United States v. Steele, 147 F.3d 1316, 1318
(11th Cir. 1998) (en banc). Other courts
have also rejected equal-protection challenges to the previous version of
§ 2L1.2(b)(2). See United States v. RuizChairez, 493 F.3d 1089, 1092 (9th Cir.
2007); see also United States v. CardenasAlvarez, 987 F.2d 1129, 1134 (5th Cir.
1993) (plain-error review).
But even if we were not bound by Adeleke, we would arrive at the same conclusion, anyway, because under Hampton,
due process and equal-protection law require it. And since the same analysis that
requires us to uphold § 2L1.2(b)(2) as constitutional dictates that we also sustain
§ 2L1.2(b)(3), we analyze the challenged
provisions together.
As Hampton governs our analysis here,
we review it in some detail. In Hampton,
lawfully admitted resident noncitizens
challenged the Civil Service Commission’s
(‘‘CSC’’) regulation precluding noncitizens
from employment in the federal competitive civil service. See 426 U.S. at 90 & n.1,
96 S.Ct. 1895. The Supreme Court held
that the regulation violated procedural due
process. See id. at 103–17, 96 S.Ct. 1895. It
reached this determination after analyzing
the rule in six steps.
First, the Court assumed that had Congress or the President expressly imposed
the same citizenship requirement, that requirement ‘‘would be justified by the na-

tional interest in providing an incentive for
aliens to become naturalized, or possibly
even as providing the President with an
expendable token for treaty negotiating.’’
Id. at 105, 96 S.Ct. 1895. Put simply, it
would pass rational-basis equal-protection
review.
Second, the Court examined whether
Congress or the President had ‘‘required
the [CSC] to adopt’’ the challenged rule.
See id. at 105, 110, 96 S.Ct. 1895. As the
Court explained, were that the case, the
Court would consider the wide set of justifications supplying a rational basis for the
rule. See id. at 105, 96 S.Ct. 1895. But the
Court found it ‘‘perfectly clear’’ that neither Congress nor the President had directed the CSC to adopt the rule. Id. Nor
did the Court see any basis for concluding
that Congress or the President ratified the
rule after the CSC promulgated it. See id.
at 106–13, 96 S.Ct. 1895.
Third, although neither Congress nor
the President ‘‘expressly imposed’’ the
challenged CSC rule, the Court noted that
it had existed for nearly a century and that
both branches had acquiesced in it. Id. at
105, 96 S.Ct. 1895. To evaluate the significance of that acquiescence, the Court considered ‘‘the extent to which the policy
ha[d] been given consideration by Congress or the President, and the nature of
the authority specifically delegated to the
[CSC].’’ Id.
The Court acknowledged that the President had previously issued an executive
order that ‘‘authorized [the CSC] to establish standards with respect to citizenship,
age, education, training and experience,
suitability, and physical and mental fitness,
and for residence or other requirements
which applicants must meet to be admitted
to or rated in examinations.’’ Id. at 111, 96
S.Ct. 1895. Nevertheless, the Court concluded that ‘‘[t]his direction ‘to establish

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

813

standard[s], with respect to citizenship’ is
not necessarily a command to require citizenship as a general condition of eligibility
for federal employment.’’ Id. at 112, 96
S.Ct. 1895.

parts of the national market.’’ Id. But, the
Court acknowledged, establishing regulations to ‘‘best promote the efficiency of the
federal civil service’’ does fall within the
CSC’s bailiwick. Id.

The Court further observed that this
Executive Order delegated to the CSC the
President’s authority, established by Congress, to authorize regulations ‘‘as will best
promote the efficiency of [the] Service.’’
See id. at 113, 96 S.Ct. 1895 (quoting 5
U.S.C. § 3301(1)). Together, the Court concluded, the statute and Executive Order
allowed the CSC to ‘‘retain or modify the
citizenship requirement without further
authorization from Congress or the President.’’ Id. In other words, the CSC had
general authority to issue rules related to
citizenship as relevant to the agency’s
business. See id. But that statute, like
other laws the Court reviewed, did not
reflect that Congress had approved or disapproved of the policy embodied in the
challenged regulation. See id. at 106–10,
113, 96 S.Ct. 1895.

Fifth, the Court explored whether the
one valid CSC interest the government
identified as supporting the rule—the administrative convenience of excluding all
noncitizens from the civil service to avoid
having noncitizens in sensitive positions
where allegiance to the United States was
appropriate—actually motivated the agency to promulgate the challenged rule. Id.
at 115, 96 S.Ct. 1895. The Court concluded
that it did not. See id.

So fourth, the Court examined ‘‘whether
the national interests which the Government identifie[d] as justifications for the
[CSC] rule are interests on which that
agency may properly rely in making a
decision implicating the constitutional and
social values at stake.’’ Id. at 113–14, 96
S.Ct. 1895. In so doing, the Court noted
that the CSC’s duties include the creation
and enforcement of regulations that enhance the smooth operation of the federal
civil service. Id. at 114, 96 S.Ct. 1895. In
contrast, the CSC has ‘‘no responsibility
for foreign affairs, for treaty negotiations,
for establishing immigration quotas or conditions of entry, or for naturalization policies.’’ Id. Nor is it ‘‘within the responsibility of the [CSC] to be concerned with the
economic consequences of permitting or
prohibiting the participation by aliens in
employment opportunities in different

As the Court observed, the CSC was
supposed to serve as an expert in federal
civil-service matters. See id. For that reason, it was expected to demonstrate expertise in handling its duties and to explain
the reasons for its decisions. Id. Yet nothing suggested that the CSC in fact engaged in ‘‘any considered evaluation of the
relative desirability of a simple exclusionary rule on the one hand, or the value to
the service of enlarging the pool of eligible
employees on the other.’’ Id. And the
Court also could not presume that classifying positions whose duties necessarily demanded citizenship would be difficult or
burdensome for the CSC. Id. Had the CSC
attempted to classify federal civil-service
positions, the Court reasoned, that action
would have shown that the CSC ‘‘had at
least considered the extent to which the
imposition of the rule is consistent with its
assigned mission.’’ Id. at 116 n.48, 96 S.Ct.
1895. But since it did not and no evidence
supported the CSC’s stated administrative
interest in the challenged rule, the Court
deemed that interest ‘‘nothing more than
[the CSC’s] hypothetical justification’’ for
the rule. Id. at 115–16, 96 S.Ct. 1895.
Sixth, the Court then weighed that
‘‘hypothetical justification’’ for the rule

814

995 FEDERAL REPORTER, 3d SERIES

against ‘‘the public interest in avoiding the
wholesale deprivation of employment opportunities caused by the [CSC’s] indiscriminate policy.’’ Id. Not surprisingly, the
Court concluded that the administrative
rationale the government proffered in litigation did not sufficiently justify the deprivation of liberty to satisfy due process. Id.
at 116–17, 96 S.Ct. 1895.
With this framework in mind, we examine subsections 2L1.2(b)(2) and (3).
1.

If Congress expressly imposed the
increased penalties reflected in
subsections 2L1.2(b)(2) and (3),
those penalties would be a valid
exercise of its authority to control
immigration.

[16] As in Hampton, we begin our procedural-due-process examination by considering whether any justification would
support the challenged rules, had they
been expressly imposed by one of the political branches. For example, could Congress pass legislation mandating longer
sentences for noncitizens convicted of illegal reentry after they incurred other criminal convictions?
[17–19] The answer is yes: Congress
has plenary authority to control immigration, including by defining criminal immigration offenses. United States v. Henry,
111 F.3d 111, 113–14 (11th Cir. 1997) (citing Pena-Cabanillas v. United States, 394
F.2d 785, 788 (9th Cir. 1968)). For that
reason, 8 U.S.C. § 1326, the criminal statute to which § 2L1.2 pertains, represents a
valid exercise of this regulatory authority.
United States v. Hernandez-Guerrero, 147
F.3d 1075, 1078 (9th Cir. 1998). And just as
Congress could, by statute, define this offense, it could further specify increased
penalties for certain offenders, as the Sentencing Commission has recommended under U.S.S.G. subsections 2L1.2(b)(2) and
(3).

To that end, Congress enacted and later
amended § 1326(b) to increase the maximum illegal-reentry sentences for noncitizens whose previous removal occurred after they were convicted of a felony. See
Anti-Drug Abuse Act of 1988, Pub. L. No.
100-690, § 7345(a)(2), 102 Stat. 4181, 4471
(1988); Violent Crime Control and Law
Enforcement Act of 1994, Pub. L. No. 103322, § 130001(b)(1)(B) and (b)(2), 108 Stat.
1796, 2023 (1994). As we have noted, the
Supreme Court has recognized that the
increased maximum sentences under
§ 1326(b) express a congressional policy to
address recidivism. See Almendarez-Torres, 523 U.S. at 230, 118 S.Ct. 1219.
Congress may have reasonably concluded that the prospect of such increased
sentences would deter noncitizens who
previously sustained criminal convictions
from reentering unlawfully. In these ways,
Congress’s enactment and amendment of
§ 1326(b) evidence its determination of
‘‘overriding national interests,’’ Hampton,
426 U.S. at 101, 96 S.Ct. 1895, in deterring
noncitizens from illegally reentering the
United States after a criminal conviction,
see Alvarenga-Villalobos v. Ashcroft, 271
F.3d 1169, 1174 (9th Cir. 2001).
2.

Neither Congress nor the President mandated the Commission to
promulgate § 2L1.2(b)(2) or (3).

[20] But despite Congress’s enactment
and amendment of § 1326(b), and as in
Hampton, neither Congress nor the President required the rules under review
here—U.S.S.G. subsections 2L1.2(b)(2) and
(3). To be sure, subsection 2L1.2(b)(2)
echoes § 1326(b)’s increases in maximum
penalties for noncitizens who illegally
reenter the United States after removal
following conviction of another crime. But
contrary to the Dissent’s suggestion, see
Dissent at 824–25, Congress never expressly mandated the Sentencing Commis-

815

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

sion to promulgate
2L1.2(b)(2) or (3).

either

subsection

[21, 22] A rule that is ‘‘expressly mandated by the Congress or the President’’ is
easily identifiable: an agency issues it in
response to a statute or executive order
that, by its language, ‘‘expressly’’ directs
the agency to promulgate a rule or rules
on a given matter. And as Hampton explains, once an agency promulgates such a
required rule, the agency is not free to
scrap the rule in the absence of congressional or executive direction. See Hampton, 426 U.S. at 112, 96 S.Ct. 1895 (that
Congress or the President did not adopt
the citizenship rule in Hampton ‘‘is demonstrated by the elimination of the citizenship requirement for employment in the
Postal Service which took place after this
litigation commenced’’).
By its own language, § 1326(b) does not
direct any agency to issue any rules of any
type. Nor, as relevant to criminal sentencing, does it impose mandatory minimum
sentences for illegal reentry after deportation when the defendant was convicted of a
qualifying crime before he was deported
the first time. Rather, it simply allows
higher maximum penalties for defendants
previously removed after sustaining certain criminal convictions. See 8 U.S.C.
§ 1326(b). In this way, § 1326(b) is broader
than both subsections 2L1.2(b)(2) and (3),
which refer to the defendant’s first removal and convictions sustained before and
2.

Under 28 U.S.C. § 994(p), new and revised
guidelines become effective if Congress does
not legislate to the contrary within 180 days
of the Sentencing Commission’s submission
of them to Congress. See U.S. Sent’g Comm’n
R. Prac. & Proc. 4.1.

3.

We respectfully disagree with the Dissent’s
suggestion that Adeleke ‘‘implicitly found that
Guideline § 2L1.2(b)(2) TTT implemented a
‘policy decision made by Congress and the
President.’ ’’ Dissent at 825 (quoting Hamp-

after it, respectively.
§ 2L1.2(b)(2)–(3).

See

U.S.S.G.

And although the Sentencing Commission submits its amended Guidelines to
Congress, 28 U.S.C. § 994(p), Congress did
not enact legislation affirmatively approving—or disapproving—the 2016 versions of
subsections 2L1.2(b)(2) and (3).2 At best,
we can say that Congress acquiesced in
them when it allowed them to take effect.
See Hampton, 426 U.S. at 107–08, 96 S.Ct.
1895 (‘‘When the [CSC] was created, it
immediately adopted the citizenship requirement, and that fact was duly reported
to Congress.’’). Finally, in the ultimate
test, nothing precludes the Sentencing
Commission from eliminating the enhancements in § 2L1.2(b)(2). As Hampton
shows, the Commission’s flexibility in this
regard is inconsistent with the notion of an
express congressional mandate under
§ 1326(b).3 See id. at 112, 96 S.Ct. 1895.
Although § 1326(b) does not ‘‘expressly
mandate’’ the Sentencing Commission to
issue any rules (guidelines), that does not
end our analysis under Hampton. Rather,
we must consider Hampton’s alternative
method for presuming a rule was issued
for the reason the agency asserts: whether
the agency’s rationale for the rule identifies ‘‘interests on which that agency may
properly rely in making a decision implicating the constitutional and social values
at stake.’’ See id. at 114, 96 S.Ct. 1895. We
therefore continue under the Hampton
framework.
ton, 426 U.S. at 105, 96 S.Ct. 1895). Adeleke
did not mention Hampton. And as we have
explained, the text of § 1326(b) establishes
that it did not ‘‘expressly mandate[ ]’’ that the
Sentencing Commission (or any other agency)
promulgate any rule. Rather, Adeleke suggested that § 1326(b) evidences a congressional
policy judgment that noncitizens with other
convictions should be ‘‘strongly deterred from
re-entering the United States.’’ See Adeleke,
968 F.2d at 1160.

816
3.

995 FEDERAL REPORTER, 3d SERIES

Congress’s enactment and amendment of § 1326(b) shows that Congress has approved of the national
interest
that
subsections
2L1.2(b)(2) and (3) promote.

[23] Next, we consider whether Congress or the President has given any indication concerning its view of policies that
the challenged rules support. We conclude
that Congress has.
As we have noted, § 1326(b) represents
Congress’s approval of a national policy to
deter noncitizens from illegally reentering
the United States after a criminal conviction. We think that’s pretty clear evidence
that Congress has considered and agrees
with the principles subsections 2L1.2(b)(2)
and (3) promote. In recommending longer
prison terms for certain noncitizens convicted of illegal reentry, subsections
2L1.2(b)(2) and (3) can reasonably be
viewed as deterring those with prior convictions from unlawfully reentering.
Subsection 2L1.2(b)(2) recommends a
higher Guidelines offense level (and therefore a potentially higher penalty) for anyone who illegally reenters the United
States after a first deportation that followed a qualifying conviction. In line with
the deterrent effect of § 1326(b)’s higher
maximum penalties for those who illegally
reenter the United States after deportation following a qualifying conviction, a
higher recommended Guidelines sentence
may reasonably be viewed as a deterrent
for some from unlawfully reentering the
United States after being deported following a qualifying conviction.
Subsection 2L1.2(b)(3) also furthers the
interest of deterrence. That subsection
recommends a higher sentence for a per4.

The Commission was careful to note—and
we likewise emphasize—that its conclusions
applied to only those noncitizens sentenced
under § 2L1.2 in 2013 and were not representative of all noncitizens not lawfully present in

son who illegally reenters the United
States and has incurred a qualifying other
conviction after he was deported for the
first time but before his current illegalreentry offense. According to the Sentencing Commission’s 2015 study on illegalreentry offenses, the 1,894 such offenders
in fiscal year 2013 whose exact number of
prior deportations was known averaged 3.2
deportations before the one for which he
was being prosecuted in 2013.4 U.S. Sent’g
Comm’n, Illegal Reentry Offenses 14 (April
2015). Of that same group of 1,894, 92%
had at least one prior non-traffic conviction, and those that did averaged 4.4 prior
convictions. Id. at 16. These numbers establish that many of those whom the United States chooses to prosecute for illegal
reentry after deportation both repeatedly
unlawfully reenter the United States and
have several prior convictions. These facts
are important to understanding how
§ 2L1.2(b)(3) operates to deter additional
illegal reentries.
As we have noted, § 2L1.2(b)(3) recommends an enhancement for a single prior
conviction incurred after a defendant’s
first deportation. So to the extent that a
defendant is convicted of a qualifying offense after his first deportation but before
his second, for example, prior to reentering for a third time, § 2L1.2(b)(3) recommends a higher sentence not only for the
second illegal reentry but also for any
illegal reentries after that one. And while
the higher sentence for the second unlawful reentry cannot deter unlawful reentry
that has already occurred, it can deter
future illegal reentries: a noncitizen who
considers the law before illegally reentering for a third or later time will know that
the United States. See Illegal Reentry Offenses
at 2 (noting that ‘‘the information [in the
report] should not be interpreted as representative of the characteristics of illegal immigrants generally’’).

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

his conviction incurred after his first deportation but before his second will cause
him to receive an enhancement under
§ 2L1.2(b)(3).
The Dissent asserts that we have ‘‘read
Congressional expressions of policy preferences too broadly.’’ Dissent at 826. We
respectfully disagree. Rather, we construe
the congressional policy judgment behind
§ 1326(b)—deterrence of those who have
been deported and who have other convictions, from illegally reentering the United
States again—exactly as we suggested in
our binding precedent nearly 30 years ago.
See Adeleke, 968 F.2d at 1160–61. For
these reasons, the Sentencing Commission’s issuance of subsections 2L1.2(b)(2)
and (3) is unlike the situation in Hampton,
where the Court could discern no clear
policy or statement of national interest
that Congress or the President had made
that might support the CSC rule at issue.
See Hampton, 426 U.S. at 109–10, 96 S.Ct.
1895.
4.

When it promulgated subsections
2L1.2(b)(2) and (3), the Sentencing
Commission properly relied on interests within its purview.

[24] We turn fourth to whether the
Sentencing Commission’s stated rationales
for promulgating subsections 2L1.2(b)(2)
and (3) qualify as valid considerations for
the agency. We conclude that they do.
With respect to both subsections
2L1.2(b)(2) and (3), the Commission reasoned that ‘‘the new specific offense characteristics more appropriately provide for
incremental punishment to reflect the
varying levels of culpability and risk of
recidivism reflected in illegal reentry defendants’ prior convictions.’’ U.S.S.G. am.
802, Reason for Amendment. As to
§ 2L1.2(b)(3) in particular, the Commission
further expounded on this rationale, opining ‘‘that a defendant who sustains crimi-

817

nal convictions occurring before and after
the defendant’s first order of deportation
warrants separate sentencing enhancement.’’ Id.
These concerns—that sentences reflect
culpability and risk of recidivism—fall
properly within the province of the Sentencing Commission. Congress created the
Commission to ‘‘establish sentencing policies and practices for the Federal criminal
justice system,’’ which includes immigration crimes. 28 U.S.C. § 991(b)(1). In fulfilling its mission, the Commission must,
among other things, ensure that sentencing policies and practices ‘‘reflect the seriousness of the offense, TTT provide just
punishment for the offense[,] TTT afford
adequate deterrence to criminal conduct[,]
TTT [and] protect the public from further
crimes of the defendant.’’ 18 U.S.C.
§ 3553(a)(2); see 28 U.S.C. § 991(b)(1)(A).
These are just different ways to say ‘‘culpability’’ and ‘‘risk of recidivism.’’ And the
Commission was required to consider ‘‘the
kinds of sentences available,’’ 18 U.S.C.
§ 3553(a)(3), including Congress’s judgment to increase maximum sentences under § 1326(b).
To accomplish these tasks, the Commission formulates guidelines ‘‘regarding the
appropriate form and severity of punishment for offenders convicted of federal
crimes; TTT advise[s] and assist[s] Congress, the federal judiciary, and the executive branch in the development of effective
and efficient crime policy; and TTT collect[s], analyze[s], research[es], and distribute[s] a broad array of information on
federal crime and sentencing issues.’’ Illegal Reentry Offenses, supra, at 1 n.1 (citing 28 U.S.C. § 995(a)(14), (15), and (20)).
So the promulgation of guidelines that reasonably could be expected to have the
effect of deterring illegal reentries of those
who have committed other crimes is en-

818

995 FEDERAL REPORTER, 3d SERIES

tirely consistent with the Sentencing Commission’s duties and responsibilities.
Plus, the rationales of culpability and
risk of recidivism logically support Congress’s adopted national interest in deterring noncitizens with criminal convictions
from repeatedly illegally reentering. A
noncitizen with criminal convictions who
knows that more severe punishment may
follow repeated unlawful reentries and the
commission of additional crimes while unlawfully here is more likely to be deterred
from illegally reentering than a noncitizen
with criminal convictions who would not
face increased penalties.
Unlike the CSC in Hampton, then, the
Sentencing Commission could properly
rely on its stated interests—that punishments reflect culpability and risk of recidivism—when it issued the challenged rules
here. In other words, the rationale underpinning subsections 2L1.2(b)(2) and (3) is
not ‘‘far removed from [the Sentencing
Commission’s] normal responsibilities’’ but
rather, falls squarely within them. See
Hampton, 426 U.S. at 105, 96 S.Ct. 1895.
5.

The Sentencing Commission appropriately relied on its expertise
and a study it undertook on sentencing for illegal-reentry offenses
when it promulgated subsections
2L1.2(b)(2) and (3).

[25] Acting under its authority to
study and distribute information on federal
crime and sentencing issues, see 28 U.S.C.
§ 995(a)(14), (15), the Sentencing Commission conducted its 2015 study to analyze
sentencings for illegal-reentry offenses.
See generally Illegal Reentry Offenses, supra. Among other things, the Commission
observed that roughly one in four cases
resolved under the Sentencing Guidelines
involves a crime of illegally reentering the
United States. Id. at 1.

Then the Commission analyzed the data
from the sentencings of all 18,498 noncitizens with illegal-reentry convictions
who were sentenced under § 2L1.2 in fiscal
year 2013. See id. at 1–2. At the time of
the study and until the Commission promulgated § 2L1.2(b)(3), § 2L1.2(b) provided for an offense enhancement of up to
sixteen levels, based solely on prior convictions conferred before the defendant was
previously deported or unlawfully remained in the United States. See U.S.S.G.
§ 2L1.2(b) (2015). In contrast, the guideline contained no enhancement for prior
convictions endured after the defendant
was previously deported or ordered removed. See id.
To show the impact of the then-existing
§ 2L1.2(b) enhancement for prior convictions, the Commission’s report used the
example of a defendant with a criminalhistory category of III, meaning that the
defendant necessarily had prior convictions
of some type. See Illegal Reentry Offenses
at 6–7. As the Commission noted, such a
defendant whose conviction occurred before his initial deportation and whose conviction qualified for the 16-level enhancement would have a Guidelines range of 46
to 57 months’ imprisonment (assuming a
deduction for acceptance of responsibility).
Id. But the Guidelines range for a defendant whose otherwise-identical criminal
history occurred after his initial deportation would be 2 to 8 months’ imprisonment.
See id. As a result, the Commission pointed out, the defendant with the pre-deportation conviction would face a Guidelines
range 23 times higher than the defendant
with no pre-deportation convictions. Id.
Although 8 U.S.C. § 1326(b) and
U.S.S.G. § 2L1.2(b) did not at that time
‘‘provide for enhancements based on convictions for offenses committed after an
offender illegally reentered the country,’’
the report noted that ‘‘48.0 percent of all

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

offenders in the sample were convicted of
at least one post-reentry offense [other
than illegal entry or reentry].’’ Id. at 18.
The Sentencing Commission also remarked that under the then-existing
§ 2L1.2(b), defendants who did not receive
an enhancement for prior convictions nonetheless had, on average, ‘‘2.0 prior convictions and 1.8 prior sentencing events.’’ Id.
at 20. Yet the then-existing enhancement
often did not apply because ‘‘the convictions occurred after the most recent illegal
reentry.’’ See id. Ultimately, the Sentencing Commission described the high rate of
defendants with prior convictions who did
not receive an enhancement under thenexisting § 2L1.2(b) as a ‘‘key finding,’’ emphasizing that ‘‘[a] significant proportion of
illegal reentry offenders committed serious
offenses—including drug-trafficking and
violent offenses—between the time that
they were first deported and their arrest
for the instant illegal reentry offense.’’ Id.
at 27–28.
In the aftermath of the Sentencing Commission’s report on illegal-reentry offenses,
in 2016, the Commission revised its priorconviction enhancements for those convicted of illegal reentry. Whereas the pre-2016
§ 2L1.2(b) guideline imposed up to a sixteen-level enhancement for a single prior
conviction incurred before the defendant’s
previous deportation, the revised version
of the guideline, as we have noted, lowered
the maximum enhancement for a pre-deportation conviction to ten levels. But
through § 2L1.2(b)(3), the revised version
also announced for the first time up to a
ten-level enhancement for prior convictions
sustained after the defendant’s first deportation.
In the explanation accompanying
Amendment 802 to the Sentencing Guidelines, which made these changes, the Com5.

As we have noted, the study identified certain inequities in pre-2016 § 2L1.2(b). It also

819

mission identified its reasons for the modifications to § 2L1.2(b). The Commission
first noted that the amendment resulted
from ‘‘the Commission’s multi-year study
of immigration offenses and related guidelines, and reflect[ed] extensive data collection and analysis relating to immigration
offenses and offenders.’’ U.S.S.G. am. 802,
Reason for Amendment. Indeed, the Commission explained, ‘‘[b]ased on this data,
legal analysis, and public comment, the
Commission identified a number of specific
areas where changes were appropriate.’’
Id.
Among these were the changes to
§ 2L1.2(b)(2) and the addition of
§ 2L1.2(b)(3). As the explanation remarked, Amendment 802 addressed concerns about, among other things, the perceived inequality between recommended
sentences for those convicted of prior offenses before deportation and those convicted after. See id. (‘‘The amendment addresses these concerns by accounting for
prior criminal conduct in a broader and
more proportionate manner.’’).
The Dissent attempts to minimize the
Commission’s study as ‘‘just a data collection project that recites various statistical
findings and explains the Commission’s
methodologies.’’ Dissent at 827. Although
we respectfully disagree with that characterization,5 even if it were accurate, the
Commission noted that it used this statistical analysis, along with ‘‘legal analysis’’
and ‘‘public comment’’ to arrive at the 2016
amendments to § 2L1.2(b). That is a textbook example of employing agency expertise to promulgate rules and regulations.
Of course, the Sentencing Commission’s
reliance on its expertise to carefully study
what it perceived to be a problem in the
sentencing of illegal-reentry offenders and
made ‘‘key findings’’ based on its statistical
analysis.

820

995 FEDERAL REPORTER, 3d SERIES

to use the results of its analysis to promulgate the current versions of subsections
2L1.2(b)(2) and (3) stands in marked contrast to what the CSC did in Hampton.
There, as the Supreme Court noted, the
CSC failed to apply any of its expertise
and to undertake any kind of analysis of
the need to limit noncitizens’ employment
in federal jobs. See Hampton, 426 U.S. at
115–16 & n.48, 96 S.Ct. 1895. So once
again, this case differs in an important way
from the factual situation at issue in
Hampton.
6.

The
Sentencing
Commission’s
stated rationales that sentencing
reflect culpability and risk of recidivism, as narrowly addressed to
only those noncitizens who have
previously been deported and who
have prior convictions, sufficiently
justify the deprivation of liberty
that subsections 2L1.2(b)(2) and
(3) recommend.

[26] Last, we must consider whether
the Sentencing Commission’s stated rationales for subsections 2L1.2(b)(2) and (3)
sufficiently justify the deprivation of liberty that they recommend. We conclude that
they do.
Both Osorto and the Dissent contend
that subsections 2L1.2(b)(2) and (3) discriminate against noncitizens because
these guidelines, by definition of the
crimes they cover, apply to only noncitizens and because they double-count prior
convictions, while other guidelines that apply to citizens count prior convictions only
once—in the criminal-history calculation.
See Dissent at 823–24.
We respectfully disagree with Osorto
and the Dissent’s characterization of the
guidelines. Subsections 2L1.2(b)(2) and (3)
pertain to only those noncitizens who are
unlawfully in the United States and have
committed another crime while illegally

here. As for the other guidelines that only
single-count prior convictions, they apply
equally to all citizens and all noncitizens
(including those noncitizens who are unlawfully in the United States). So the
group of individuals arguably discriminated against by subsections 2L1.2(b)(2)
and (3)’s double-counting is not all noncitizens; it is the smaller subset of noncitizens
who are unlawfully present in the United
States and have also committed at least
one other qualifying violation. Cf. Cardenas-Alvarez, 987 F.2d at 1134 (noting that
‘‘the guidelines were devised to and do
treat all persons with aggravated felonies
who commit this crime equally’’).
But significantly, these individuals
being prosecuted under § 1326(b) for
very reason that they are unlawfully in
United States. That is their crime as
fined by Congress.

are
the
the
de-

[27] And that fact is important to our
due-process analysis because we have observed that § 1326(b)’s increased maximum
sentences for defendants with prior convictions indicates ‘‘a Congressional [judgment] that TTT the prior conviction is a
critical part of what makes the current
reentry wrongful.’’ Alfaro-Zayas, 196 F.3d
at 1341 n.5 (citation and quotation marks
omitted). That is to say, Congress determined that illegally being present in the
country after already having been convicted of otherwise violating the law here
makes the crime of illegally being in the
United States a different and worse crime
than it would be in the absence of the prior
conviction. For that reason, considering
the prior convictions in the criminal-history calculation does not capture what we
have described as the nature of the crime
at issue here.
And since Congress was concerned that
other offenses a noncitizen commits while
unlawfully here are what make this crime

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

more consequential than illegal reentry by
itself, it does not matter to the gravity of
the crime whether the noncitizen was convicted
of
other
offenses
before
(§ 2L1.2(b)(2)) or after (§ 2L1.2(b)(3)) he
was deported the first time—as long as he
was convicted of them. Similarly, because
Congress sought to deter noncitizens with
prior convictions from repeatedly reentering the United States, again, it makes no
difference if the noncitizen was convicted
of another crime before (§ 2L1.2(b)(2)) or
after (§ 2L1.2(b)(3)) he was deported the
first time; as we have explained, the national interest of deterrence embodied in
§ 1326(b) is consistent with deterring both
kinds of conduct.
Subsections 2L1.2(b)(2) and (3) are
therefore narrowly targeted to address the
same national interest that Congress embraced when it enacted § 1326(b). The
guidelines in question do not affect noncitizens who are lawfully present in the United States, and they don’t apply to noncitizens who are illegally here if they have not
committed other crimes while in the country.
Rather, they are directed solely at those
noncitizens who have previously been deported after a prior conviction here and
seek to reenter, and those who have previously been deported and have committed
other crime here after their first deportation. Subsections 2L1.2(b)(2) and (3) also
are designed to more evenly and accurately reflect culpability and risk of recidivism:
rather than, as happened under the prior
version of § 2L1.2(b)(2), recommending
grossly disparate sentences for two noncitizens who unlawfully reenter after deportation and who have committed the same
other crime—one before his first deportation and one after—the current version of
the guidelines would recommend the same
sentence for both defendants. Put another
way, subsections 2L1.2(b)(2) and (3) now

821

apply a more equal and less lopsided approach to culpability, risk of recidivism,
and deterrence.
For all these reasons, the Sentencing
Commission’s promulgation of subsections
2L1.2(b)(2) and (3) is appreciably different
from the CSC’s issuance of the rule at
issue in Hampton. So under the Hampton
framework, we must conclude that subsections 2L1.2(b)(2) and (3) satisfy procedural
due process.
D. The guidelines at subsections
2L1.2(b)(2) and (3) do not violate
equal protection.
[28] Because subsections 2L1.2(b)(2)
and (3) do not offend procedural due process, we turn next to the equal-protection
analysis. That requires us to consider
whether subsections 2L1.2(b)(2) and (3)
bear a rational relationship to the interests
the Commission relied on—ensuring sentences reflect culpability and risk of recidivism. We conclude that they do.
Consistent with Congress’s judgment as
reflected in § 1326(b), the Commission
could have reasonably determined that the
sentence of a noncitizen who illegally enters this country more than once and commits crimes when here illegally—whether
he does so before or after he has been
ordered deported or removed for the first
time—should reflect that he is more
blameworthy than a noncitizen who simply
illegally enters the United States more
than once but is otherwise law-abiding
while here. It likewise rationally could
have concluded that a noncitizen who illegally enters the United States more than
once and also engages in other criminal
activity while here poses a greater risk of
unlawfully returning to the United States
in the future. Because Fifth Amendment
equal-protection analysis demands nothing
more, we must conclude that the post-

822

995 FEDERAL REPORTER, 3d SERIES

deportation conviction enhancement does
not violate equal protection.
E. Section 2L1.2 does not violate
Congress’s directive that sentences be neutral as to national
origin.
[29] Osorto separately argues that by
treating noncitizens differently from citizens, § 2L1.2 also violates Congress’s directive that sentencing be neutral as to
national origin. See 28 U.S.C. § 994(d). We
respectfully disagree.
As we have explained, § 994(d) means
that national origin, among other factors,
is ‘‘completely irrelevant for sentencing
purposes.’’ United States v. Burgos, 276
F.3d 1284, 1291 (11th Cir. 2001) (citations
and internal quotation marks omitted). Although we have not addressed this question previously, we join other circuits in
recognizing that alienage—not being a citizen of the United States—differs from national origin, i.e. the particular country in
which one was born. See United States v.
Restrepo, 999 F.2d 640, 644 (2d Cir. 1993);
United States v. Nnanna, 7 F.3d 420, 422
(5th Cir. 1993) (per curiam); United States
v. Smith, 27 F.3d 649, 654 (D.C. Cir. 1994);
United States v. DeBeir, 186 F.3d 561, 569
(4th Cir. 1999). For that reason, § 2L1.2
did not unlawfully require the district
court to consider national origin in imposing Osorto’s sentence.
III. Substantive Reasonableness
[30–32] Finally, Osorto argues that his
sentence of 37 months’ imprisonment is
substantively unreasonable. We review for
abuse of discretion the substantive reasonableness of a sentence. United States v.
6.

In his reply brief, Osorto also argues that
his sentence was substantively unreasonable
because the Sentencing Commission did not
rely on empirical data and merely sought to
implement Congress’s scheme for maximum

Plate, 839 F.3d 950, 956 (11th Cir. 2016).
Because Osorto challenges the sentence,
he must shoulder the burden of demonstrating that the sentence is unreasonable,
considering the complete record, the
§ 3553(a) factors, and the substantial deference we give sentencing courts. United
States v. Gomez, 955 F.3d 1250, 1255 (11th
Cir. 2020) (per curiam). He cannot make
that showing here.
[33] Osorto bases his argument that
his sentence is substantively unreasonable
on his contention that the district court
‘‘gave significant weight to an impermissible consideration’’—namely, the subsection
2L1.2(b)(2) and (3) enhancements for his
prior convictions. Osorto asserts that the
district court could not permissibly rely on
these enhancements because they violate
equal protection. We have already explained why that is not so.6
[34, 35] To the extent that Osorto’s argument can be construed as alleging impermissible double-counting under the
Sentencing Guidelines, that, too, fails. We
conduct de novo review of a double-counting objection to the Guidelines. United
States v. Matos-Rodriguez, 188 F.3d 1300,
1310 (11th Cir. 1999).
[36] ‘‘Impermissible double counting
occurs only when one part of the Guidelines is applied to increase a defendant’s
punishment on account of a kind of harm
that has already been fully accounted for
by application of another part of the
Guidelines.’’ United States v. Whyte, 928
F.3d 1317, 1338 (11th Cir. 2019) (citation
and quotation marks omitted). Nevertheless, we have explained that double-counting is allowable ‘‘if the Sentencing Compunishment. But Osorto abandoned these arguments by not raising them in his opening
brief. See United States v. Levy, 379 F.3d 1241,
1244 (11th Cir. 2004) (per curiam). So we do
not consider them here.

823

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

mission intended the result, and TTT each
section [applied] concerns conceptually
separate notions relating to sentencing.’’
Adeleke, 968 F.2d at 1161 (citations and
internal quotation marks omitted).
In Adeleke, we explained that an earlier
version of § 2L1.2(b)(2) and the Chapter
Four criminal-history guidelines do not impermissibly double-count prior convictions
because the Sentencing Commission
‘‘clearly intended’’ this result and because
different policies—deterrence and recidivism, respectively—motivated each provision. Id. We remain bound by that holding
as to § 2L1.2(b)(2).

1161. Even if § 2L1.2(b)(3)’s purpose relating to recidivism echoes that of Chapter
Four, § 2L1.2(b)(3)’s concern regarding
culpability for the particular offense for
which the defendant is being sentenced
does not. Rather, as the Commission’s Illegal Reentry Offenses report suggests and
consistent with our precedent on § 1326(b),
§ 2L1.2(b)(3) contemplates a harm—the
act of committing other crimes while illegally in the United States—that is separate from the one Chapter Four seeks to
address
generally.
Consequently,
§ 2L1.2(b)(3) does not engage in unlawful
double-counting.

[37] As for § 2L1.2(b)(3), we similarly
conclude that the Sentencing Commission
undoubtedly intended for a noncitizen who
illegally reentered the United States after
previous deportation or removal to have
his post-deportation convictions accounted
for both in his offense conduct and in his
criminal history. We know this because the
Sentencing Commission acknowledged this
result. See U.S.S.G. § 2L1.2 cmt. n.3 (‘‘A
conviction taken into account under subsection (b)(1), (b)(2), or (b)(3) is not excluded from consideration of whether that conviction receives criminal history points
pursuant to Chapter Four, Part A (Criminal History).’’). Plus, we presume that the
Sentencing Commission anticipated applying separate guideline sections cumulatively, unless the Guidelines expressly indicate
the contrary. Matos-Rodriguez, 188 F.3d
at 1310. Nothing in the Guidelines suggests that the Commission did not intend
the alleged double-counting result.

[38] Osorto offers no other reasons
why his sentence is substantively unreasonable, and we find no basis for concluding that it is. The district court stated that
it had considered all the § 3553(a) factors
and the Sentencing Guidelines, and it emphasized Osorto’s history and characteristics in imposing his sentence. In addition,
Osorto’s sentence falls at the low end of
his Guidelines range. We generally anticipate that a sentence within the Guidelines
range is reasonable. United States v. Gonzalez, 550 F.3d 1319, 1324 (11th Cir. 2008)
(per curiam). And at 37 months, it falls
well below the statutory maximum term of
20 years’ imprisonment. See 8 U.S.C.
§ 1326(b)(2). A sentence that comes in far
below the statutory maximum penalty is
another indicator of reasonableness. Gomez, 955 F.3d at 1260. In sum, we hold
that the district court did not abuse its
discretion, and Osorto’s sentence is substantively reasonable.

So
we
must
consider
whether
§ 2L1.2(b)(3) and Chapter Four (pertaining to determination of the criminal-history category) involve conceptually separate
concerns related to sentencing. The criminal-history section of the Guidelines embodies concerns related to punishing recidivists more severely. Adeleke, 968 F.2d at

IV. Conclusion
We hold that the Sentencing Guidelines’
enhancements
under
subsections
2L1.2(b)(2) and (3), for criminal convictions
received before and after the defendant’s
previous deportation or removal, do not
violate the Constitution’s guarantee of

824

995 FEDERAL REPORTER, 3d SERIES

equal protection. Nor do they cause unlawful double-counting in violation of due process or otherwise. We also conclude that
the sentence imposed in this case is substantively reasonable. For these reasons,
we affirm.
AFFIRMED.
MARTIN, Circuit Judge, concurring in
part and dissenting in part:
I agree with the majority that we are
bound by United States v. Adeleke, 968
F.2d 1159 (11th Cir. 1992) to reject Mr.
Osorto’s equal protection challenge to
United States Sentencing Guideline
§ 2L1.2(b)(2). I write separately about the
other subsection of that Guideline at issue
here (§ 2L1.2(b)(3)), however, because I do
not believe it passes constitutional muster.
Mr.
Osorto
challenges
Guideline
§ 2L1.2(b)(3) on equal protection grounds.
This Guideline makes for tougher sentences for defendants who commit a designated offense after reentering the United
States without authorization. See USSG
§ 2L1.2(b)(3). This list of designated offenses does not include the offense of unauthorized reentry itself. See id. Meanwhile, a defendant is already punished for
both the unauthorized reentry and any
other offense that leads to the increased
punishment imposed by § 2L1.2(b)(3) on
account of the calculation of a defendant’s
criminal history under the Sentencing
Guidelines. See USSG § 4A1.1(b). The result is that any offense committed after
unauthorized reentry is double-counted for
noncitizens in their Guideline calculation
based on little more than their immigration
status.
Sentencing
Guideline
§ 2L1.2(b)(3) therefore subjects noncitizen
defendants to more severe punishment
than citizens who commit the same crime.
Mr. Osorto argues that this more severe
punishment imposed upon him because he
is a noncitizen violates his Fifth Amend-

ment right to equal protection of the laws.
U.S. Const. Amend. V; see United States
v. Windsor, 570 U.S. 744, 774, 133 S. Ct.
2675, 2695, 186 L.Ed.2d 808 (2013) (‘‘The
liberty protected by the Fifth Amendment’s Due Process Clause contains within
it the prohibition against denying to any
person the equal protection of the laws’’). I
believe he is right.
I.
I start from the premise that discrimination based on ‘‘alienage, like [that] based
on nationality or race, [is] inherently suspect and subject to close judicial scrutiny.’’
Graham v. Richardson, 403 U.S. 365, 372,
91 S. Ct. 1848, 1852, 29 L.Ed.2d 534 (1971)
(footnotes omitted). In deciding that, under
the Fourteenth Amendment as applied to
the states, classifications based on alienage
are subject to heightened scrutiny, the Supreme Court observed that noncitizens
‘‘are a prime example of a discrete and
insular minority for whom such heightened
judicial solicitude is appropriate.’’ Id. (quotation marks and citation omitted). I recognize that the Supreme Court made a
significant departure from this principle
when it afforded rational basis review to
classifications based on ‘‘alienage’’ made by
Congress and the President. Mathews v.
Diaz, 426 U.S. 67, 83, 87, 96 S. Ct. 1883,
1893, 1895, 48 L.Ed.2d 478 (1976). The
Court reasoned Congress and the President are charged with ‘‘the responsibility
for regulating the relationship between the
United States’’ and our noncitizen visitors
and thus needed more ‘‘flexibility in policy
choices’’ than would be appropriate for the
states. Id. at 81, 96 S. Ct. at 1892.
But the Supreme Court also set a vital
limiting principle to its Diaz holding. It
clarified that the federal power over noncitizens is not ‘‘so plenary that any agent
of the National Government may arbitrarily subject all resident [noncitizens] to dif-

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

ferent substantive rules from those applied
to citizens.’’ Hampton v. Wong, 426 U.S.
88, 101, 96 S. Ct. 1895, 1904, 48 L.Ed.2d
495 (1976). In Hampton, the Supreme
Court applied heightened scrutiny to a
rule promulgated by the Civil Service
Commission that excluded noncitizens
from federal employment. Id. at 90, 96 S.
Ct. at 1899. Upon application of heightened
scrutiny, it held that the rule was unconstitutional. Id. at 115–17, 96 S. Ct. at 1911–
12. In so doing, the Court set up a framework for deciding when classifications
based on alienage made by federal agencies (not Congress or the President directly) are reviewed under the rational basis
test. Hampton says it is only when an
agency ‘‘has direct responsibility for fostering or protecting’’ an ‘‘overriding national interest’’ or when the rule is ‘‘a
policy decision made by Congress and the
President’’ that it will be subject to rational basis review. Id. at 103, 105, 96 S. Ct. at
1905, 1906.
As Mr. Osorto noted, when a panel of
this Court held that what is now Guideline
§ 2L1.2(b)(2) did not violate equal protection, it never cited Hampton. Adeleke, 968
F.2d at 1160–61. However, in holding that
§ 2L1.2(b)(2) rationally furthered the interest in deterring unauthorized reentry, the
panel noted that Congress expressly
adopted this policy by enacting 8 U.S.C.
§ 1326(b), which delineated certain punishments for noncitizens ‘‘whose deportation
was subsequent to a conviction for commission of a felony.’’ See id. (quotation marks
and emphasis omitted). Thus I understand
the Adeleke panel to have implicitly found
that Guideline § 2L1.2(b)(2) was subject to
rational basis review because it implemented a ‘‘policy decision made by Congress
and the President.’’ Hampton, 426 U.S. at
105, 96 S. Ct. at 1906.
But the Adeleke panel did not give the
same
treatment
to
Guideline

825

§ 2L1.2(b)(3). This Guideline, enacted after Adeleke, mandates a four-level increase in the offense level for noncitizens
convicted of certain offenses after they
have already reentered the United States
without
authorization.
USSG
§ 2L1.2(b)(3). The government argues
that this Guideline serves the same purpose as Guideline § 2L1.2(b)(2): deterring
unauthorized reentry. But logically that
cannot be the case. The only noncitizens
eligible for the § 2L1.2(b)(3) are those
who have already reentered and committed another designated offense. This does
not include an enhancement (harsher punishment) for the offense of unauthorized
entry itself. USSG § 2L1.2(b)(3). In contrast to the government’s argument, the
Sentencing Commission itself pointed to
deterrence
as
the
rationale
for
§ 2L1.2(b)(2) but not § 2L1.2(b)(3). See
USSG am. 802, Reason for Amendment
(‘‘The (b)(2) specific offense characteristic
reflects the same general rationale as the
illegal reentry statute’s increased statutory maximum penalties for offenders with
certain types of serious pre-deportation
predicate offenses[.]’’) (citing 8 U.S.C.
§ 1326(b)). The Commission cannot, as it
could with § 2L1.2(b)(2), rely on Congress’s express approval to justify the
harsher penalty for noncitizens reflected
in
§
2L1.2(b)(3).
Plainly,
with
§ 2L1.2(b)(3), the Commission did not implement a rule or policy expressly mandated or approved by Congress or the
President. See id.
The majority says that § 1326(b) constitutes Congressional endorsement of
§ 2L1.2(b)(3) because it ‘‘also furthers the
interest of deterrence,’’ in that it might,
theoretically, ‘‘deter future illegal reentries.’’ Maj. Op. at 816, 816–17. But this
reads both § 1326(b) and Hampton too
broadly. Section 1326(b) applies only to
noncitizens ‘‘whose removal was subsequent’’ to certain convictions. 8 U.S.C.

826

995 FEDERAL REPORTER, 3d SERIES

§ 1326(b)(1)–(2). Therefore, we cannot say
that it explicitly endorses the specific policy embodied by § 2L1.2(b)(3). And Hampton directs us not to construe indications of
endorsement by Congress or the President
too broadly. Hampton expressly rejected
the idea that Congress endorsed the Civil
Service Commission’s rule just because it
‘‘repeatedly identified citizenship as one
appropriate classification of persons eligible for compensation for federal service’’
which ‘‘implies a continuing interest in giving preference, for reasons unrelated to
the efficiency of the federal service, to
citizens over [noncitizens].’’ 426 U.S. at
109, 96 S. Ct. at 1908. The Court also
rejected a number of other indicia of Congress’s endorsement of the Civil Service
Commission’s rule. Among the indicia rejected by the Court was the idea that
Congress assumed that the Commission
would adopt that rule (thus obviating the
need to direct the Commission to do so in
legislation) and the fact that the Commission ‘‘duly reported’’ the rule to Congress,
which never repudiated it. Id. at 106, 107–
08, 96 S. Ct. at 1907–08.
Instead of looking to the general policy
preferences that Congress and the President expressed, Hampton looked to the
fact that neither had ‘‘expressly prescribe[d]’’ the rule adopted by the Commission. Id. at 110, 96 S. Ct. at 1908. In
that case, not even an executive order
directing the Civil Service Commission to
establish employment eligibility standards
‘‘with respect to citizenship’’ was sufficient
to constitute endorsement of the specific
rule the Commission in fact adopted. Id. at
112, 96 S. Ct. at 1909 (quotation marks
omitted).
The Supreme Court’s preoccupation
with upholding only those alienage classifications expressly endorsed by Congress or
the President is explained by the distinction Hampton made between those federal

entities that are charged with the plenary
power over immigration and those that are
not. See id. at 100–02, 96 S. Ct. at 1904–05.
And that distinction is essential to safeguarding the right of noncitizens to equal
protection under the law. Hampton limits
the extent to which federal agencies should
receive extremely deferential rational basis
review when it comes to alienage discrimination. See id. at 101, 96 S. Ct. at 1904
(‘‘We do not agree TTT that the federal
power over [noncitizens] is so plenary that
any agent of the National Government
may arbitrarily subject [noncitizens] to different substantive rules from those applied
to citizens.’’). I fear that if we read Congressional expressions of policy preferences too broadly, as I believe the majority
does today, we undermine both the constitutional rights of noncitizens and the exclusive authority of Congress and the President to decide when differential treatment
of noncitizens is truly necessary.
Similarly here, I would not read into
§ 1326(b) a general deterrence policy.
First, such a policy is not expressly addressed in § 1326(b). See 8 U.S.C.
§ 1326(b). Indeed, even the Sentencing
Commission noted that § 1326(b) supplied
the rationale for § 2L1.2(b)(2) but not
§ 2L1.2(b)(3). See USSG am. 802, Reason
for Amendment. And the study cited by
the majority lays out a forty-year history
of Congress amending § 1326(b). See Maj.
Op. at 816–17, 817–20. At no point during
that history did Congress enact additional
penalties for offenses committed after
reentry. See U.S. Sentencing Comm’n, Illegal Reentry Offenses 3–5 (April 2015),
https://www.ussc.gov/sites/default/files/pdf/
research-and-publications/researchprojects-and-surveys/immigration/2015
Illegal-Reentry-Report.pdf. Just as Hampton held that a history of enacting statutes
and issuing executive orders that accomplished similar goals was not an endorsement of the Civil Service Commission’s

U.S. v. OSORTO
Cite as 995 F.3d 801 (11th Cir. 2021)

rule, here too § 1326(b) cannot be extended
to justify differential treatment of noncitizens under § 2L1.2(b)(3).
Second, absent something more direct, I
would not presume that Congress thought
that something so remote from an actual
unlawful reentry had a deterrent effect.
The study the majority cites does not tell
us that this harsher punishment actually
has any deterrent effect on unlawful entry.
Indeed, that lack of evidence may very
well explain why Congress has never, over
some four decades, enacted harsher penalties for offenses committed after reentry.
II.
Because I do not believe Congress endorsed
the
policy
embodied
by
§ 2L1.2(b)(3), I would not analyze it using
rational basis review.
After establishing that the Civil Service
Commission was not acting in the realm of
immigration when it adopted the challenged regulation, the Court in Hampton
applied a heightened form of review to the
only reason given by the agency as within
its purview. The Court recognized that
‘‘administrative convenience’’ may supply a
‘‘rational basis’’ for the challenged rule, but
immediately rejected it as the proffered
reason. Id. at 115, 96 S. Ct. at 1911. The
Court explained that, ‘‘[f]or several reasons that justification is unacceptable in
this case,’’ a suit brought by noncitizens
alleging alienage discrimination. Id. Instead, the Court took the Civil Service
Commission to task for failing to ‘‘perform
its responsibilities with some degree of
expertise, and to make known the reasons
for its important decisions.’’ Id. The Court
noted the Commission’s expertise in ‘‘per1.

And the Sentencing Commission could also
have eliminated this disparity by simply elimi-

827

sonnel matters,’’ while also observing the
Commission had failed to adequately explain why the ‘‘administrative burden of
establishing the job classifications for
which citizenship is an appropriate requirement would be a particularly onerous
task for [such] an expert.’’ Id.
Even accepting that this Guideline advances the Sentencing Commission’s
broader interest in reflecting the seriousness of certain offenses or risk of recidivism, the Commission has not explained
why those interests have not been adequately addressed by other means that
apply to citizens and noncitizens alike. For
example, the sentences that already apply
to those underlying offenses or the inclusion of those offenses in a defendant’s
criminal history calculation may already
reflect the seriousness of the offense and
the risk of recidivism.
The majority describes the statistical
study that the Sentencing Commission undertook before issuing § 2L1.2(b)(3) which
noted the disparity that existed between
those whose offenses pre-dated and postdated their removal. Maj. Op. at 818–19.
But this study is not sufficient for at least
two reasons. First, this study is just a data
collection project that recites various statistical findings and explains the Commission’s methodologies. See generally Illegal
Reentry Offenses. There is no discussion
of the effectiveness of harsher sentences
as a deterrent or the values or goals that
varying sentences help to promote. Second, the disparity that the study describes
is accounted for by the fact that
§ 2L1.2(b)(2) acts to deter unlawful reentry. There is no similar immigration-related deterrence value, at least none expressly endorsed by Congress, that animates
§ 2L1.2(b)(3).1 And the study cited by the
nating the enhancements in § 2L1.2(b)(2).

828

995 FEDERAL REPORTER, 3d SERIES

majority never explains why the need to
reflect culpability or risk of recidivism outweighs the right of noncitizens to equal
treatment, especially given the weight of
the liberty interest at stake: ‘‘freedom
from imprisonment.’’ See Zadvydas v.
Davis, 533 U.S. 678, 690, 121 S. Ct. 2491,
2498, 150 L.Ed.2d 653 (2001) (‘‘Freedom
from imprisonment—from government
custody, detention, or other forms of physical restraint—lies at the heart of the liberty that [the Fifth Amendment’s Due
Process] Clause protects.’’); see generally
Illegal Reentry Offenses. In the absence of
a justification that recognizes the discriminatory effect of § 2L1.2(b)(3) and explains
why differential treatment is necessary to
advance an ‘‘overriding national interest,’’
I am not convinced the Sentencing Commission has met its burden under Hampton’s heightened scrutiny. Hampton, 426
U.S. at 103, 96 S. Ct. at 1905.
III.
I believe the majority erred by finding
that Congress endorsed the policy advanced by § 2L1.2(b)(3). I fear the majority’s approach to Hampton undermines the
very framework its ruling instructed us to
follow. For Mr. Osorto’s case, that error
leads to the preservation of a Sentencing
Guideline that I believe unconstitutionally
deprives noncitizens of their liberty. For
these reasons, I respectfully dissent.

,

Erin TONKYRO, Dana Strauser, Kara
Mitchell-Davis, Yenny Hernandez,
Plaintiff – Appellant,
v.
SECRETARY, DEPARTMENT
OF VETERANS AFFAIRS,
Defendant – Appellees.
No. 19-10014
United States Court of Appeals,
Eleventh Circuit.
(April 20, 2021)
Background: Ultrasound technologists
brought action against Secretary of the
Department of Veterans Affairs under Title VII alleging that their supervisors and
coworkers retaliated against them and
subjected them to hostile work environment because they engaged in protected
Equal Employment Opportunity Commission (EEOC) activity, and one technologist
alleged that she was subjected to hostile
work environment based on her sex. The
United States District Court for the Middle District of Florida, No. 8:16-cv-2419CEH-AEP, Charlene Honeywell, J., 2018
WL 5830584, entered summary judgment
in Secretary’s favor, and plaintiffs appealed.
Holdings: The Court of Appeals, Tjoflat,
Circuit Judge, held that:
(1) it was only necessary for employees
show that their protected activity
played any part in adverse employment actions to establish retaliation
claim, and
(2) female co-worker’s conduct did not create sexually hostile work environment.
Affirmed in part, vacated in part, and remanded.

